No. 20-1459
IN THE SUPREME COURT OF THE UNITED STATES

UNITED STATES OF AMERICA, PETITIONER
v.
JUSTIN EUGENE TAYLOR

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
MOTION FOR LEAVE TO DISPENSE WITH PREPARATION OF A JOINT APPENDIX, via
email and first-class mail, postage prepaid, this 19th day of July 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218

July 19, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management Specialist, Office
of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2218. Thank you for your
consideration of this request.

20-1459
USA
JUSTIN EUGENE TAYLOR

FRANCES H. PRATT
ASSISTANT FEDERAL PUBLIC DEFENDER
1650 KING STREET
SUITE 500
ALEXANDRIA, VA 22314
703-600-0800
FRAN_PRATT@FD.ORG

